April 28, 2021

TO: Justice Sonia Sotomayor
United States Supreme Court
1 First Street NE
Washington, D.C. 20543

FROM: Richard DeBenedetto
Petitioner
P.O. Box 3157
South Padre Island, Texas 78597

Re: Case 20A144 — DeBenedetto v. Lumpkin

Honorable Justice Sotomayor,

In the spirit of Clarence Gideon who was denied an attorney at felony trial,
I am submitting a request to renew my recent submission of a request to
the Court for a Certificate of Appealability pursuant to 28 U.S.C. § 2253(c)(1).
The COA request was timely filed by mail to the Court at the above address on
Monday, March 8, 2021. On April 2, 2021 the request for a COA was denied by
Justice Alito. Within the time allowed, on April 27, 2021 I submitted the
aforementioned request for a rehearing which I understand should actually be titled
a request to renew. This request to renew is identical to the aforementioned

petition for a COA and has not been altered.

Thank You,
Respectfully,
Cold DiGenlete

Richard DeBenedetto
Petitioner pro se

Temporary mailing address (for purposes of this letter only):
Richard DeBenedetto

c/o General Delivery

Ingleside, Texas 78362
